No.

20-5674

PI
Supreme Court, U.S.
FILED

AUG 0 7 2020
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

In re JAMES WARD, PETITIONER,
VS.
TROY STEELE, RESPONDENT.

ON PETITION FOR A WRIT OF HABEAS CORPUS TO THE
MISSOURI SUPREME COURT

PETITION FOR A WRIT OF HABEAS CORPUS

James Ward #267830
Potosi Correctional Center
11593 State Highway 0
Mineral Point, MO 63660
573-438-6000
Petitioner, pro se

QUESTIONS PRESENTED

Consistent with the holding in Strickland v. Washington,
466 U.S. 668 (1984), which held that to prove prejudice on a
claim of ineffective assistance of counsel, a defendant must
show that "there is a reasonable probability that, but for
counsel's unprofessional errors, the result of the proceeding
would have been different."
1. Has prejudice been shown where defense counsel fails to
inform the defendant that he can plead guilty and accept an
offer of "30 YEARS OR LIFE CONCURRENT", and as a result of
counsel's failure to inform defendant of State's plea offer,
defendant proceeds to trial and is ultimately tried, convicted,
and sentenced to CONCURRENT TERMS OF LIFE WITHOUT PAROLE AND
THIRTY YEARS, and A CONSECUTIVE TERM OF FIFTEEN YEARS?
2. What remedy, if any, should be provided for ineffective
assistance of counsel during plea bargain negotiations if the
defendant was later convicted and sentenced pursuant to
constitutionally inadequate procedures?
3. Is the Missouri Supreme Court's denial of the writ petition
on this issue contrary to established federal case law in
Missouri v. Galin E. Frye, 132 S.Ct. 1399 (2012)?

i

LIST OF PARTIES

All parties appear in the caption of the case on the cover
page.

ii

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-15

REASONS FOR GRANTING THE WRIT

16

CONCLUSION

17

INDEX TO APPENDICES
APPENDIX A

ORDER of the Missouri Court of Appeals

APPENDIX B

ORDER of the Circuit Court of Washington County

APPENDIX C

ORDER of the Missouri Supreme Court

APPENDIX D

STATE'S RECOMMENDATION/PLEA OFFER

APPENDIX E

AUTHORIZATION FOR RELEASE OF ATTORNEY CASE FILES

APPENDIX F

SENTENCE AND JUDGMENT

APPENDIX G

CIRCUIT COURT DOCKET SHEET

iii

TABLE OF AUTHORITIES CITED
CASES
Alvernaz v. Ratelle, 831 F.Supp. 790 (S.D. Cal. 1993)
Arnold v. Thaler, 630 F.3d 367 (5th Cir. 2011)
Becton v. Hun, 205 W. Va. 139 (1999)
Ebron v. Commissioner of Correction, 992 A.2d 1200 (Conn. App. 2010)
Evitts v. Lucey, 469 U.S. 387 (1985
Ex Parte Lemke, 13 S.W.3d 791 (Tex. Ct. Crim. App. 2000)
Florida v. Nixon, 543 U.S. 175 (2004)
Griffin v. United States, 330 F.3d 733 (6th Cir. 2003)
Hill v. Lockhart, 474 U.S. 52 (1985)
In re Crews, 159 S.W.3d 355 (Mo. banc 2005)
Jiminez v. State, 144 P.3d 903 (Okla. Crim. App. 2006)
Johnson v. Duckworth, 793 F.2d 898 (7th Cir. 1986)
Leatherman v. Palmer, 583 F.Supp.2d 849 (W.D. Mich. 2008)
Libretti v. United States, 516 U.S. 29 (1995)
Milliken v. Bradley, 418 U.S. 717 (1974)
Nunes v. Mueller, 350 F.3d 1045 (9th Cir. 2003)
Oliver v. United States, 292 Fed. Appx. 886 (11th Cir. 2008)
Padilla v. Kentucky, 130 S.Ct. 1473 (2010)
Pham v. United States, 317 F.3d 178 (2nd Cir. 2003)
Powell v. Alabama, 287 U.S. 45 (1932)
Premo v. Moore, 131 S.Ct. 733 (2011)
Roe v. Flores-Ortega, 528 U.S. 470 (2000)
Rompilla v. Beard, 545 U.S. 374 (2005)
Rushen v. Spain, 464 U.S. 114 (1983)
Satterlee v. Wolfenbarger, 453 F.3d 362 (6th Cir. 2006)
Shiwlochan v. Portuondo, 345 F.Supp.2d 242 (E.D.N.Y. 2004)
State v. Donald, 10 P.3d 1193 (Ariz. Ct. App. 2000)
State v. Kraus, 397 N.W.2d 671 (Iowa 1986)
Strickland v. Washington, 466 U.S. 668 (1984)
iv

Cont. CASES
United States v. Blaylock, 20 F.3d 1458 (9th Cir. 1994)
United States ex rel. Caruso v. Zelinsky, 689 F.2d 435 (3rd Cir. 1982)
United States v. Castro, 365 Fed. Appx. 966 (10th Cir. 2010)
United States v. Cronic, 466 U.S. 648 (1984)
United States v. Morrison, 449 U.S. 361 (1981)
United States v. Mouling, 557 F.3d 658 (D.C. Cir. 2009)
United States v. Rodriguez-Rodriguez, 929 F.2d 747 (1st Cir. 1991)
United States v. Virginia, 518 U.S. 515 (1996)
United States v. Wilson, 719 F.Supp.2d 1260 (D. Or. 2010)
Wiggins v. Smith, 539 U.S. 510 (2003)
Williams v. State, 605 A.2d 103 (Md. 1992)
Wright v. Van Patten, 552 U.S. 120 (2008)
CONSTITUTIONAL PROVISIONS
U.S. Constitution, Sixth Amendment
OTHER AUTHORITIES

American Bar Association Criminal Justice Standards, 4-6
Missouri Rules of Professional Conduct, Rule 4-1

v

IN THE
SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF HABEAS CORPUS

Petitioner respectfully prays that a writ of habeas corpus
issue to review the judgment below.

OPINIONS BELOW

This case is from state courts:
The Order of the (Missouri Supreme Court) highest state
court to review the merits appears at Appendix C to the
petition and is unpublished.
The Order of the (Missouri Court of Appeals) intermediate
court of appeals to review the merits appears at
Appendix A to the petition and is unpublished.
The Order of the (Circuit Court of Washington County)
lower court in the first instance to review the merits
appears at Appendix B to the petition and is unpublished.

1

JURISDICTION

This case is from state courts:
1. Petitioner filed a petition for a writ of habeas corpus in
Case No. 13WA-CC00167 addressing this issue in the Circuit
Court of Washington County on April 3, 2013.

The court denied

the writ petition on September 5, 2013;
2. Petitioner filed a petition for a writ of habeas corpus in
Case No. ED108108 addressing this issue in the Missouri Court
of Appeals for the Eastern District on August 5, 2019.

The

court denied the writ petition on August 27, 2019;
3. Petitioner filed a petition for a writ of habeas corpus in
Case No. SC98269 addressing this issue in the Missouri Supreme
Court on December 13, 2019.

The court denied the writ petition

on February 18, 2020.

The jurisdiction of this Court is invoked under 28 U.S.C. §
1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The Fourteenth Amendment to the United States Constitution
provides, in relevant part, that "No State shall ... deprive
any person of life, liberty, or property, without due process
of law."
The Sixth Amendment to the United States Constitution
provides, in relevant part, that no person shall be denied the
right to legal counsel in any criminal proceeding, and the
effective assistance of legal counsel.

3

STATEMENT OF THE CASE

INTRODUCTION
On 12-1-98, John T. Bird, Assistant Circuit Attorney
issued a plea offer and recommendation of 30 YEARS OR LIFE
CONCURRENT, and said offer would expire on 3-1-99.

However,

Petitioner, ward's trial counsel, David Bruns, Assistant Public
Defender did not inform Ward of the offer, and Ward's trial
began on May 17, 1999.

Ward moves to vacate his conviction and

sentence on the ground that he was denied effective assistance
of counsel when trial counsel, David Bruns failed to inform him
of the plea offer.

The difference between the lighter sentence

offered in the plea offer and the sentence ward actually
received is evidence of the prejudice Ward suffered as a result
of counsel's failure and deficient performance,

Ward first

learned of the expired plea offer while incarcerated during
March 2011, when he requested and obtained his complete case
file from the Missouri Public Defender System's Archives.
After reviewing counsel's case file, he discovered the plea
offer, in which counsel failed to inform him of.

Ward asserts

that had he been informed of the opportunity to plead guilty to
"30 YEARS OR LIFE CONCURRENT" he would have done so, and thus,
but for counsel's failure and deficient performance, the
outcome of the proceedings would have been different.

4

GROUND ONE
TRIAL COUNSEL WAS INEFFECTIVE FOR FAILING TO INFORM
PETITIONER, JAMES WARD OF THE STATE'S PLEA OFFER AND
RECOMMENDATION, AND PETITIONER WAS PREJUDICED THEREBY, AND
THUS, PETITIONER WAS DENIED HIS RIGHTS TO DUE PROCESS OF LAW,
TO EFFECTIVE ASSISTANCE OF COUNSEL, AND TO FUNDAMENTAL
FAIRNESS, IN VIOLATION OF THE SIXTH AND FOURTEENTH AMENDMENTS
TO THE UNITED STATES CONSTITUTION AND ARTICLE I, §§ 10 AND
18(a) OF THE MISSOURI CONSTITUTION.

ARGUMENT
On 12-1-98, John T. Bird, Assistant Circuit Attorney
issued a plea offer and recommendation of 30 YEARS OR LIFE
CONCURRENT, and said plea offer would expire on 3-1-99.

This

document was stamp-filed by the Circuit Clerk's Office
"1998 DEC-1 P 2:57" (App. D).
Petitioner, Ward's trial counsel, David Bruns, Assistant
Public Defender did not inform Ward of the plea offer.
Consequently, Ward's trial began on May 17, 1999.

Ward was

found guilty after a jury trial, and sentenced to concurrent
terms of life imprisonment without parole and 30 years
imprisonment, and a consecutive term of 15 years imprisonment.
Ward first learned of the expired plea offer while
incarcerated during March 2011, when he requested and obtained
his complete case file from the Missouri Public Defender
5

System's Archives.

After reviewing trial counsel's case file

he discovered the plea offer, in which counsel failed to inform
him of (App. E).
Ward moves to vacate his convictions and sentences on the
ground that he was denied effective assistance of counsel when
defense counsel, David Bruns failed to inform him of the plea
offer.

The difference between the lighter sentence offered in

the plea offer and the sentence Ward actually received is
evidence of the prejudice Ward suffered as a result of
counsel's failure and deficient performance,

Ward asserts that

had counsel informed him of the opportunity to plead guilty to
"30 YEARS OR LIFE CONCURRENT" he would have done so, and thus,
but for counsel's failure and deficient performance, the
outcome of the proceedings would have been different.

I.

James Ward Was Denied Effective Assistance Of Counsel
When His Lawyer Failed To Inform Him Of The State's
Plea Offer.

The Sixth Amendment guarantees criminal defendants the
right to effective assistance of counsel during plea bargain
negotiations.

Hill v. Lockhart, 474 U.S. 52, 57-59 (1985);

Padilla v. Kentucky, 130 S.Ct. 1473, 1480-1481 (2010).

The

standard is the familiar one set out in Strickland v.
Washington, 466 U*S. 668 (1984).

A defendant establishes

ineffective assistance by showing (1) "that counsel's
6

representation fell below an objective standard of
reasonableness," IcL at 688, and (2) "that there is a
reasonable probability that, but for counsel's unprofessional
errors, the result of the proceeding would have been
different," Id. at 694.

Premo v. Moore, 131 S.Ct. 733, 737-

738, 739-740 (2011); Wright v. Van Patten, 552 U.S. 120

124

(2008); Hill, 474 U.S. at 57-58.
Defense counsel's failure to inform Ward of the
prosecutor's plea offer unquestionably fell below an objective
standard of reasonableness.

Had defense counsel acted with

reasonable professional competence, Ward would have pleaded
guilty to 30 YEARS OR LIFE CONCURRENT.

Because of counsel's

deficient performance, however, Ward received a sentence of
CONCURRENT TERMS OF LIFE WITHOUT PAROLE AND THIRTY YEARS, and
A CONSECUTIVE TERM OF FIFTEEN YEARS.

But for counsel's

deficient performance, the result of this proceeding would have
been different.

Strickland, 466 U.S. at 694.

The well-established Strickland standard of prejudice
appropriately and effectively addresses counsel's deficient
performance.

Plea negotiations are a critical stage in the

criminal process.

Padilla, 130 S.Ct. at 1486.

A guilty plea

entered without knowledge of a prior, and more favorable, plea
offer is not entered with full awareness of the alternatives
available to the defendant.

This lack of awareness undermines

the reliability of the plea and renders it fundamentally unfair.
7

The different outcome changed the result of the proceedings to
Ward's disadvantage,

Limiting "relief" to standing trial does

not remedy the prejudice.

A.

The Right To
The Fairness
Prosecution,
The Fairness

Effective Assistance Of Counsel Ensures
Of All Critical Stages Of A Criminal
Including Plea Negotiations, Not Just
Of Trial.

The Sixth Amendment guarantees effective assistance of
counsel "[i]n all criminal prosecutions," not just at the
trial, but before trial and after trial.

"[Pjerhaps the most

critical period of the proceedings ... [is] the time of ...
arraignment until the beginning of ... trial."
Alabama, 287 U.S. 45, 57 (1932).

Powell v.

The Court noted that at such

time "[t]he critical hand of counsel is needed ..." Id. at 5455,

The Court has also guaranteed defendants the right to

effective assistance of counsel during the sentencing stage of
the criminal proceeding, Rompilla v. Beard, 545 U.S. 374, 380
(2005) , and in the appellate stage following trial.
Lucey, 469 U.S. 387, 396 (1985).

Evitts v.

The Court noted in Evitts

that counsel's assistance is necessary because an appeal is "an
adversary proceeding that - like a trial - is governed by
intricate rules that to a layperson would be hopelessly
forbidding." Id.
The Court recognizes that effective counsel is necessary
to provide fairness to the defendant and reliability to the
8

proceeding because the complex nature of criminal law demands
an expertise and experience well beyond the un-trained
layperson.

These complexities are inherent in the process of

negotiating a plea agreement.

"Plea bargains are the result of

complex negotiations suffused with uncertainty, and defense
attorneys must make careful strategic choices in balancing
opportunities and risks."
added).

Premo, 131 S.Ct. at 741 (emphasis

A layperson defendant "requires the guiding hand of

counsel at every step in the proceedings against him."

Powell

v. Alabama, 287 U.S. at 53 (emphasis added).
While defense counsel represented Ward during the pre­
trial process, his failure to communicate the State's plea
offer to Ward is comparable to the absence of counsel during
this critical stage.

The complete denial of counsel during a

critical stage of a judicial proceeding mandates a presumption
of prejudice because "the adversary process itself
rendered presumptively unreliable."

has been

Roe v. Flores-Ortega, 528

U.S. at 471, citing United States v. Cronic, 466 U.S. 648, 659
(1984) .

Here, we are not dealing with the State's discretion

to make or withdraw a plea offer.

Rather, we are dealing with

an offer that was rejected because of defense counsel's
ineffective assistance, with disastrous results for [the
defendant] .

In the end, this ineffective assistance and the

resulting prejudice are attributable to the State.

9

B.

Failure To Inform The Defendant Of A Plea Offer
Amounts To Constitutionally Deficient Performance

No duty is more basic to the role of defense counsel than
that of informing the client of a plea offer made by the
prosecutor.

"An attorney undoubtedly has a duty to consult

with the client regarding important decisions," including an
offer to plead guilty, which "is an event of signal
significance in a criminal proceeding."

Florida v. Nixon, 543

U.S. 175, 187 (2004)(internal quotation marks omitted).

The

Court has made it clear that "it is the responsibility of
defense counsel to inform a defendant of the advantages and
Libretti v. United States,

disadvantages of a plea agreement."
516 U.S. 29, 50 (1995).

Since defense counsel has a constitutional obligation to
consult with a client about a plea offer, and the advantages
and disadvantages of accepting a plea offer, counsel has the
constitutional obligation to inform the defendant that the
prosecutor has made a plea offer.

Every federal Court of

Appeals to have addressed the issue has held that defense
counsel's failure to advise a client of a plea offer amounts to
constitutionally deficient performance.

Rodriguez-Rodriguez,

929 F.2d at 752; Pham, 317 F.3d at 182; Caruso, 689 F.2d at
438; Brannon, 48 Fed. Appx. at 53; Arnold v. Thaler, 630 F.3d
367, 370 (5th Cir. '2011)(per curiam); Griffin v. United States,
330 F.3d 733, 737 (6th Cir. 2003); Johnson v. Duckworth, 793
10

F.2d 898, 902 (7th Cir. 1986), cert. denied, 479 U.S. 937
(1986); Blaylock, 20 F.3d at 1465-66; United States v. Castro,
365 Fed. Appx. 966, 967 (10th Cir. 2010); Oliver v. United
States, 292 Fed. Appx. 886, 887 (11th Cir. 2008), cert, denied,
129 S.Ct. 2023 (2009); United States v. Mouling, 557 F.3d at
669.
The Court has often used the standards of the American Bar
Association as guidelines for determining whether counsel's
performance is reasonable.

See, e.g., Rompilla v. Beard, 545

U.S. at 387; Wiggins v. Smith, 539 U.S. 510, 525 (2003);
Padilla, 130 S .Ct. at 1482.

The ABA's standards for Criminal

Justice require that "[djefense counsel should promptly
communicate and explain to the accused all significant plea
proposals made by the prosecutor."

ABA Criminal Justice

Standard 4-6.2(b).
The Court has stated:

"States are free to impose whatever

specific rules they see fit to ensure that criminal defendants
are well represented .
479.

• •

It

Roe v. Flores-Ortega, 528 U.S. at

Missouri's Rule 4-1.4 of the rules of professional

conduct states:

"(a) A lawyer shall:

(1) keep the client

reasonably informed about the status of the matter;- [and] . . .
(b) A lawyer shall explain a matter to the extent reasonably
necessary to permit the client to make informed decisions
regarding representation."

In In re Crews, 159 S.W.3d 355, 359

(Mo. banc 2005), the Missouri Supreme Court held that pursuant
11

to Rule 4-1.4, counsel is required to keep the client informed
of significant developments in the case, and "a lawyer who
receives from opposing counsel ... a proffered plea bargain in
a criminal case must promptly inform the client of its
substance." (emphasis added).
Trial counsel failed to meet his professional
responsibility to inform Ward of the State's plea offer,

In

failing to do so, his performance fell short of the level of
competence required by the Sixth Amendment.

II.

Ward Suffered Prejudice Because Had He Been Informed
Of The Plea Offer The Outcome Would Have Been
Different; He Would Have Received A Shorter Sentence

Ward did not allege that his trial counsel's performance
was deficient because he failed to secure the most advantageous
plea possible.

He alleges that trial counsel failed to act as

a reasonably competent attorney when he failed to communicate
the plea offer made by the State.

The difference between the

sentence offered in the plea bargain - 30 YEARS OR LIFE
CONCURRENT - and the sentence Ward actually received CONCURRENT TERMS OF LIFE WITHOUT PAROLE AND THIRTY YEARS, and
A CONSECUTIVE TERM OF FIFTEEN YEARS

is not evidence of

counsel's deficient performance; it is evidence of the
prejudice Ward suffered as a result of counsel's deficient
performance.

This is the familiar context-driven Strickland
12

test of deficient performance and resulting prejudice,

But

for counsel's deficient performance, the outcome of the
proceedings would have been different.
Ward was entitled to effective counsel who would advise
him of the State's plea offer.

He was entitled to awareness of

the alternatives available to him before he decided whether to
accept a plea offer or go to trial.

A straight forward

application of the Strickland test applies because, but for
counsel's deficient performance, the outcome of Ward's
proceeding would have been different.

Ward does not seek to

modify or supplant the Strickland test.

III.

The Appropriate Remedy Is To Allow Ward To Plead
Guilty To The Original Offer Because That Is The
Only Remedy That Will Restore Him To The Position
He Would Have Occupied Had Counsel Not Been
Ineffective.

The ordinary remedy for constitutional violations is to
restore the victim of the violation to the position he would
have occupied had the violation not occurred,

The

constitutional violation suffered by Ward was the loss of the
opportunity to accept the State's plea offer,

The only way to

restore Ward to the position he would have occupied had counsel
advised him of the plea offer is, to allow him to plead guilty
under the terms of the plea offer.

13

The remedy for a constitutional violation "must closely
fit the constitutional violation."
518 U.S. 515, 547 (1996).
"necessarily designed

United States v. Virginia,

Constitutional remedies are

as all remedies are, to restore the

victims of [constitutional violations] to the position they
would have occupied in the absence of such conduct."

Milliken

v. Bradley, 418 U.S. 717, 746 (1974).
Remedies for deprivation of effective assistance of
counsel are no different.

"Cases involving Sixth Amendment

deprivations are subject to the general rule that remedies
should be tailored to the injury suffered from the
constitutional violation."
at 364.

United States v. Morrison, 449 U.S.

"Our approach has thus been to identify and neutralize

the taint by tailoring relief appropriate in the circumstances
to assure the defendant the effective assistance of counsel."
Id. at 365.

As the Court has observed, "[t]he adequacy of

any remedy is determined solely by its ability to mitigate the
constitutional error."
(1983) .

Rushen v. Spain, 464 U.S. 114, 119-120

An appropriate remedy returns the defendant to the

point before the constitutional violation in order to put him
in the position he would have occupied but for the error.
The only remedy appropriate to cure counsel's
ineffectiveness in failing to communicate the State's plea
offer to Ward is to permit Ward to accept the original offer.
Anything less does not "mitigate the constitutional error."
14

Rushen v. Spain, supra.
the same conclusion.

Many of the state courts have reached

See, e.g., Satterlee v. Wolfenbarger, 453

F.3d 362, 371 (6th Cir. 2006) n.7, cert, denied, 549 U.S. 1281
(2007); Nunes v. Mueller, 350 F.3d 1045

1056-57 (9th Cir.

2003); Blaylock, 20 F.3d at 1468-69; United States v. Wilson,
719 F.Supp.2d 1260, 1275 (D. Or. 2010); Leatherman v. Palmer,
583 F.Supp.2d 849, 871-72 (W.D. Mich. 2008), aff'd, 387 Fed.
Appx. 533 (6th Cir. 2010); Shiwlochan v. Portuondo, 345 F.Supp.
2d 242, 264-6.5 (E.D.N.Y. 2004), aff'd, 150 Fed. Appx. 58 (2d
Cir. 2005); Alvernaz v. Ratelle, 831 F.Supp. 790, 797-99 (S.D.
Cal. 1993); Ebron v. Commissioner of Correction

992 A.2d 1200,

1214-19 (Conn. App. 2010), appeal pending, 297 Conn. 915, 995
A.2d 954 (2010); Jiminez v. State, 144 P.3d at 905, 907; Ex
Parte Lemke, 13 S.W.3d 791, 797-98 (Tex. Ct. Crim. App. 2000);
State v. Donald, 10 P.3d 1193, 1202-05 (Ariz. Ct. App. 2000),
Cert, denied, 534 U.S. 825 42 (2001); Becton v. Hun

205 W. Va.

139, 516 S.E.2d 762, 768 (1999); Williams v. State, 605 A.2d
103, 110-11 (Md. 1992); State v. Kraus, 397 N.W.2d 671, 676
(Iowa 1986) .
Petitioner, Ward Is available and willing to testify at an
evidentiary hearing that trial counsel, David Bruns, Assistant
Public Defender failed to convey a plea offer made by the
Assistant Circuit Attorney, John T. Bird, and that he would
have accepted said plea offer if he had known about it, and
that the plea would have resulted in a lighter sentence.
15

REASONS FOR GRANTING THE PETITION
In compliance with Rules 20.1 and 20.4 Petitioner states
as follows:
1. The writ will be in aid of the Court's appellate
jurisdiction, by establishing its precedence that will furnish
a basis for determining an identical or similar case that may
subsequently arise, or present a similar question of law.
2. Exceptional circumstances warrant the exercise of the
Court's discretionary powers, in that, a constitutional
viplation has resulted.

Thus, a manifest injustice or

miscarriage of justice would result in the absence of habeas
relief.
3. Adequate relief cannot be obtained in any other form or
from any other court, as Petitioner has presented this issue
before the Washington County Circuit Court; Missouri Court of
Appeals; and Missouri Supreme Court.
The writ should issue because:

(1) Petitioner was denied

effective assistance of counsel when defense counsel, David
Bruns failed to inform him of the plea offer; (2) the
difference between the lighter sentence offered in the plea
offer and the sentence Mr. Ward actually received is evidence
of the prejudice he suffered as a result of counsel's failure
and deficient performance; and (3) but for counsel's failure
and deficient performance, the outcome of the proceedings would
have been different.

16

CONCLUSION

Restoring Petitioner, Ward to the position he would have
occupied but for counsel's deficient performance comports with
the Court's Sixth Amendment precedent.

Doing so will not

create new rights or a new legal test; nor will it interfere
with the orderly administration of justice,

Allowing Ward to

accept the un-communicated offer will remedy the Sixth
Amendment prejudice he suffered, consistent with the standard
the Court established in Strickland v. Washington.
Respectfully submitted,

^JAMES WARD #267830
POTOSI CORRECTIONAL CENTER
11593 STATE HIGHWAY 0
MINERAL POINT, MO 63660
573-438-6000
PETITIONER, PRO SE

Date:

17

8/7/2020

